USCA Case #17-5290

icument #1771030

Filed: 0: )/2019

Page 1 of 3
EXIT

pnifeb $tatrs Inurt øf ppiaiz
FOR THE DISTRICT OF COLUMBIA CIRCUIT

September Term, 2018

No. 17-5290

1:16-cv-00398-JEB

Filed On: January 30, 2019
Qihui Huang,
Appellant
V.

Ajit Varadaraj Pal, Chairman of Federal
Communications Commission (FCC), et al.,
Appellees

BEFORE:

Henderson, Rogers, and Wilkins, Circuit Judges

FeYAWW
Upon consideration of the motions for summary reversal, the response, the reply,
and the supplements thereto; appellees' motion for summary affirmance and the
response thereto; the motion to refer for criminal prosecution and the supplement
thereto; the motion for jury trial and the supplement thereto; the motion for leave to
seek damages under Bivens v. Six Unknown Named Agents of the Fed. Bureau of
Narcotics, 403 U.S. 388 (1971), and the supplement thereto; the motion for stay, which
is construed as a motion to defer consideration of certain claims, and the supplement
thereto; appellant's brief and appendix; and appellant's remaining submissions, which
are construed as supplements to the motions for summary reversal, it is

ORDERED that the motion for summary affirmance be granted and the motion
for summary reversal be denied. The merits of the parties' positions are so clear as to
warrant summary action. See Taxpayers Watchdog, Inc. v. Stanley, 819 F.2d 294, 297
(D.C. Cir. 1987) (per curiam). The district court properly dismissed for lack of
jurisdiction appellant's claims against her individual supervisors. See Jarrell v. U.S.
Post Office, 753 F.2d 1088, 1091 (D.C. Cir. 1985) ("the head of the agency is the only
proper defendant in a Title VII action"). Dismissal of appellant's claims arising under
criminal law and her request for criminal punishment of the appellees was also proper
because appellant lacks standing to enforce the criminal law: See Linda R.S. v.
Richard D., 410 U.S. 614, 619 (1973).
The district court construed appellant's claim of discrimination based on
appellees' failure to transfer her to a new management team as arising under the

USCA Case #17-5290

Jcument 4-"1771030

guiteb

Filed: 0. )/2019

Page 2 of 3

tatvs Lnxrt of '13yeals

FOR THE DISTRICT OF COLUMBIA CIRCUIT

September Term, 2018

No. 17-5290

Rehabilitation Act and property dismissed that claim for lack of jurisdiction because
appellant failed to exhaust her administrative remedies. See Spinelli v. Goss, 446 F.3d
159, 162 (D.C. Cir. 2006). The court also correctly dismissed for failure to state a claim
appellant's claims of discrimination and retaliation arising from her supervisor's
responses to a draft report she prepared, the failing rating on her performance review,
the requirement of additional documents in support of her request for sick leave, and
her placement on a Performance Improvement Plan. See Stewart v. Ashcroft, 352 F.3d
422, 426 (D.C. Cir. 2003) (to state a Title VII claim, a "plaintiff bears the burden of
showing tangible employment action evidenced by firing, failing to promote, a
considerable change in benefits, or reassignment with significantly different
responsibilities"). Dismissal of appellant's claims of hostile work environment and
constructive termination was also proper. See Baloch v. Kernpthorne, 550 F.3d 1191,
1201 (D.C. Cir. 2008) (a plaintiff alleging hostile work environment "must show that his
employer subjected him to 'discriminatory intimidation, ridicule, and insult' that is
'sufficiently severe or pervasive to alter the conditions of the victim's employment and
create an abusive working environment.") (quoting Harris v. Forklift Sys., Inc., 510 U.S.
17, 21 (1993)) (additional citations omitted); Steele v. Schafer, 535 F.3d 689, 694-95
(D.C. Cir. 2008) (conduct giving rise to a constructive termination claim must be even
more severe than what is required for a hostile work environment claim).
The district court properly granted summary judgment for appellees on
appellant's claim arising from the denial of her in-grade pay step increase. While the
failure to exhaust that claim could be excused on equitable grounds, see Nat'l R.R.
Passenger Corp. v. Morgan, 536 U.S. 101, 113 (2002), appellant has shown no error in
the district court's conclusion that she abandoned her claim. Further, the district court
correctly held that appellant failed to raise a material issue of disputed fact that
appellee's legitimate, non-discriminatory reasons for denying appellant's pay step
increase were pretextual and that appellees discriminated against her. See, e.g., Brady
v. Office of the Sergeant at Arms, 520 F.3d 490, 496 (D.C. Cir. 2008). It is
FURTHER ORDERED that the motion to refer for criminal prosecution, the
motion for jury trial, and the motion to defer consideration be denied. Appellant has
shown no entitlement to the requested relief. It is
FURTHER ORDERED that the motion for leave to seek Bivens damages be
denied. See Brown v. GSA, 425 U.S. 820, 835 (1976) (Title VII "provides the exclusive
judicial remedy for claims of discrimination in federal employment").
-

-

Pursuant to D.C. Circuit Rule 36, this disposition will not be published. The Clerk
is directed to withhold issuance of the mandate herein until seven days after resolution
Page 2

USCA Case #17-5290

Jcument #1771030

1thtt $tafr Liurf

Fed: 0.

of

)I2019

Page 3 of 3

~yyeals

FOR THE DISTRICT OF COLUMBIA CIRCUIT

September Term, 2018

No. 175290

of any timely petition for rehearing or petition for rehearing en banc. See Fed. R. App.
P. 41(b); D.C. Cir. Rule 41.
Per

Curam

Page 3

USCA Case #17-5290

ocument #1783157

Filed: 0

3/2019

Page 1 of 1
EXHIBIT

Uniteb States 1Iinxrt of

ppal

,

FOR THE DISTRICT OF COLUMBIA CIRC UIT

No. 17.5290

September Term, 2018
1:16cv00398JEB
Filed On: April 16, 2019

Qihul Huang,
Appellant
V.

Ajit Varadaraj Pal, Chairman of Federal
Communications Commission (FCC), et al.,
Appellees

BEFORE:

Garland, Chief Judge, and Henderson, Rogers, Tate], Griffith,
Srinivasan, Millett, Pillard, Wilkins, Katsas, and Rao, Circuit Judges
ORDER

Upon consideration of the petition for rehearing en banc, and the absence of a
request by any member of the court for a vote, it is
ORDERED that the petition be denied.
Per Curiam

FOR THE COURT:
Mark J. Langer, Clerk
BY: Is!
Ken Meadows
Deputy Clerk

